<html>
<title> - HEARING ON H.R. 1051, NEW MEXICO STATEHOOD AND ENABLING ACT AMENDMENTS OF 1997</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON H.R. 1051, NEW MEXICO STATEHOOD AND ENABLING ACT AMENDMENTS 
                                OF 1997

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                     JUNE 17, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-30

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 43-699 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
              Todd Hull and Dan Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 17, 1997.......................................     1

Statements of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    10
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement.......................................     8
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................    12
    Smith, Hon. Robert F., a Representative in Congress from the 
      State of Oregon............................................    11

Statements of witnesses:
    Redmond, Hon. Bill, a Representative in Congress from the 
      State of New Mexico........................................    15
        Prepared statement.......................................    16
    Skeen, Hon. Joe, a Representative in Congress from the State 
      of New Mexico..............................................    12
        Prepared statement.......................................    14
Additional material submitted:
    Text of H.R. 1051............................................    13



HEARING ON H.R. 1051, NEW MEXICO STATEHOOD AND ENABLING ACT AMENDMENTS 
                                OF 1997

                              ----------                              


                         TUESDAY, JUNE 17, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., 
Room 1324, Longworth House Office Building, Hon. James V. 
Hansen, Chairman, presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The meeting will come to order. The 
Subcommittee on National Parks and Public Lands convenes to 
hear testimony on H.R. 1051, Enabling Act of New Mexico, and 
H.R. 1567, the Eastern Wilderness Act.
    [H.R. 1051 can be found at the end of the hearing.]
    Mr. Hansen. The first bill is H.R. 1051. This bill would 
amend the New Mexico Enabling Act of June 20, 1910, in order to 
protect the permanent trust funds of the State of New Mexico 
from erosion due to inflation. This would be accomplished by 
modifying the basis on which distributions are made from those 
funds and by loosening the current investment restrictions. The 
modifications include changing the payout to a fixed percentage 
of the fund, thereby allowing a portion of the interest and 
dividend income received to be reinvested. This bill would also 
loosen investment restrictions and allow broader investment 
options and opportunities.
    We are pleased to have two Representatives from New Mexico 
with us today, Congressman Joe Skeen and Congressman Bill 
Redmond. Unfortunately, Congressman Steven Schiff is ill and 
unable to be here today. We all wish him a quick and complete 
recovery.
    We do want to extend our warm greetings to the new face on 
Capitol Hill, Mr. Redmond, who is a newly elected 
Representative from the traditionally Democratic but now 
Republican Third Congressional District of New Mexico. We 
welcome Mr. Redmond and are happy to have him here at our 
Subcommittee hearing. Both Mr. Redmond and Mr. Skeen will have 
a few words in support of H.R. 1051.
    Back in 1964, we passed the Wilderness Act establishing the 
National Wilderness Preservation System. The system was 
designed to ensure that certain areas of our land would be 
preserved in a natural condition for the use and enjoyment of 
present and future generations. Sounds like a pretty noble 
goal, doesn't it? A system of wilderness areas where nature, 
instead of man, dominates the landscape; a place where both we 
and our children can go to get away from the city and 
experience nature in its pristine state just like our 
forefathers did.
    I think that from the outset, we have to concede that 
wilderness is not free. When we designate part of our land as a 
wilderness area, we foreclose our ability to use many of the 
natural resources, impose economic limitations on surrounding 
communities, limit our land management options, and we also 
severely restrict the types of recreation that can be enjoyed 
within the area. However, the American people have decided that 
the goals of wilderness preservation are important enough that 
they are willing to bear the costs.
    Since 1964, Congress has designated about 103 million acres 
of wilderness. Since I have entered government service, I have 
been fortunate to have the opportunity to participate in the 
wilderness designation process many times. During my 
experience, though, I have noticed one glaring disparity in the 
Act's implementation. Almost all of the Nation's wilderness 
areas are in the West. Of those 103 million acres, almost 99 
million are in the West. That is right, the West has over 95 
percent of the Nation's wilderness.
    Now that works out pretty well for a lot of westerners. Our 
youth groups love to go backpacking in our wilderness areas. A 
Boy Scout from Salt Lake City can go on a weekend excursion 
with his troop into the beautiful High Uintas wilderness area. 
He can hike up Explorer Peak overlooking the mountain valleys, 
breathe in the fresh pine-scented air, and marvel at the beauty 
of nature. It helps a young man to see past the streets. It 
gives a kid the opportunity to meditate and think about life, 
and the world, and to see a bigger picture.
    I think kids need experiences like that. I think a good 
quality wilderness experience is something that can benefit 
anyone. And I think that people in the East need them just as 
much as people in the West. So my question is this: Why are we 
opting to preserve only western wilderness?
    What are the effects of preserving wilderness on only one 
side of the continent? Well, first we are gradually losing the 
opportunity to save important ecosystems. The eastern forests 
have a unique biological balance found nowhere else in the 
world. Every day that we delay preservation, we are risking 
irreparable damage to these ecosystems.
    Second, it makes it very difficult, if not impossible, to 
have a good wilderness experience in the East. In the East we 
have a situation where over 80 percent of the country's 
population must share less than 5 percent of the country's 
wilderness. The few wilderness areas that we do have in the 
East are almost unbearably crowded.
    Now, I will have to admit that there are a lot of 
easterners for whom this really isn't a big problem. They can 
just catch a plane to Colorado or Alaska for a weekend and have 
a great wilderness experience there. A lot of these people 
don't really think it is a problem that there isn't very much 
wilderness in the East, and many of these people declined to 
come to this hearing. They don't understand why we would need 
more wilderness in the east if we can just designate more in 
the West.
    Well, it is a problem for the millions of eastern Americans 
who can't afford to fly 2,000 miles to go camping for a 
weekend. Is it fair to have a world where only wealthy 
easterners are able to enjoy the wilderness? As it stands now, 
the average kid living in the eastern inner city isn't going to 
have the opportunity to experience the wilderness. His family 
can't afford to take him out West, and inner city youth groups 
don't have that kind of money. He really needs to get away from 
the street and experience nature, even if it is just for a 
weekend, but he will never get the chance. He probably needs 
the wilderness experience more than anyone, and yet we have 
created a system where he is the one with the least access to 
wilderness.
    For over 30 years now, Congress has followed basically the 
same pattern. The agencies study the areas that might qualify, 
whether it is a RARE I or RARE II process, or whether it is 
national park or refuge wilderness. They then make 
recommendations to Congress, and then we decide what should be 
designated. We all get together, compare notes, argue a little, 
and designate a few million more acres of wilderness in the 
West, hoping to take some of the pressure off. Over the last 3 
decades this has led to a staggering disparity between the 
number of acres of wilderness in the West as compared to the 
number of acres of wilderness in the East.
    The last time we took a serious look at the issue of 
eastern wilderness preservation was with the Eastern Wilderness 
Act of 1975. This Act specifically designated about 204,000 
acres of wilderness east of the 100th meridian and designated 
several wilderness study areas. The Act was successful to a 
certain extent, at increasing the amount of eastern wilderness. 
However, it has been over 20 years since it has passed, and the 
disparity between eastern and western wilderness acreage 
continues to grow. It is time that we address this issue again.
    Granted, there are a lot of reasons that wilderness 
designation in the East is difficult. Among these include the 
fact that there is less Federal land in the East, and there are 
fewer unsettled areas in the East. However, I don't think it is 
fair to deny easterners a chance to have wilderness in their 
midst just because it is a little more difficult to designate 
eastern wilderness than western wilderness. There are millions 
of acres in the East that can and should become wilderness. 
These areas must be preserved. If we neglect to do so, we may 
lose the chance forever.
    I think that H.R. 1567 would go a long ways toward 
remedying the eastern wilderness problem. It will direct the 
Secretary of Agriculture and the Secretary of Interior to study 
and inventory lands east of the 100th meridian that might 
qualify as wilderness. A process of public hearings will then 
ensue where State and local interests will be allowed to 
express their views on proposed designations. From time to 
time, following this period of local input, the Secretaries 
will report to the President their recommendations as to the 
suitability of these lands for wilderness preservation. The 
President will then make recommendations with respect to each 
area to Congress. The President's recommendations will become 
effective only through an Act of Congress.
    Several components of the bill would serve to make 
wilderness designation in the East easier. First, it lowers the 
acreage threshold in the East to 500 acres. This will help 
alleviate the problem that it is more difficult to find large 
unsettled areas east of the 100th meridian. Second, the bill 
would allow State and private lands to be studied for 
wilderness feasibility. This would help solve the problem that 
there is so little Federal land in the East. Third, the law 
would allow land to be designated as wilderness if it could 
eventually qualify as wilderness through national reclamation. 
This would help alleviate the problem that so little of the 
East fits the ``untrammeled'' definition of the original Act.
    It is time to start discussing the issue. It is time to 
start doing something. This bill would finally force Congress 
to make a decision on all potential wilderness in the East 
sometime during the next 15 years.
    I want to make one thing very clear. The bill does not 
actually designate any wilderness areas. Congress would still 
have to vote on each wilderness area. What this bill does is 
force us to start acting. It is designated to make it a little 
easier for eastern lands to qualify, and then to force us to 
start considering each of those areas.
    [The statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    The Subcommittee on National Parks and Public Lands 
convenes to hear testimony on H.R. 1051, ``Enabling Act of New 
Mexico,'' and H.R. 1567, ``Eastern Wilderness Act.''
    The first bill is H.R. 1051. This bill would amend the New 
Mexico Enabling Act of June 20, 1910 in order to protect the 
permanent trust funds of the State of New Mexico from erosion 
due to inflation. This would be accomplished by modifying the 
basis on which distributions are made from those funds and by 
loosening the current investment restrictions. The 
modifications include changing the payout to a fixed percentage 
of the Fund, thereby, allowing a portion of the interest and 
dividend income received to be reinvested. This bill would also 
loosen investment restrictions and allow broader investment 
options and opportunities.
    We are pleased to have two representatives from New Mexico 
with us today, Congressman Joe Skeen and Congressman Bill 
Redmond. Unfortunately, Congressman Steven Schiff is ill and is 
unable to be here today. We all wish him a quick and complete 
recovery.
    We do want to extend our warm greetings to a new face on 
Capitol Hill, Mr. Redmond, who is the newly elected 
representative from the traditionally Democratic, but now 
Republican 3rd Congressional District of New Mexico. We welcome 
Mr. Redmond and are happy to have him here at our Subcommittee 
hearing. Both Mr. Redmond and Mr. Skeen will say a few words in 
support of H.R. 1051.
    Back in 1964, we passed The Wilderness Act establishing the 
National Wilderness Preservation System. The system was 
designed to ensure that certain areas of our land would be 
preserved in a natural condition for the use and enjoyment of 
present and future generations. Sounds like a pretty noble 
goal, doesn't it? A system of wilderness areas where nature, 
instead of man, dominates the landscape. A place where both we 
and our children can go to get away from the city and 
experience nature in its pristine state just like our 
forefathers did.
    I think that from the outset, we have to concede that 
wilderness is not free. When we designate part of our land as a 
wilderness area we foreclose our ability to use of many of the 
natural resources, impose economic limitations on surrounding 
communities, limit our land management options and we also 
severely restrict the types of recreation that can be enjoyed 
within the area. However, the American people have decided that 
the goals of wilderness preservation are important enough that 
they are willing to bear the costs.
    Since 1964, Congress has designated about 103 million acres 
of wilderness. Since I've entered government service, I've been 
fortunate to have the opportunity to participate in the 
wilderness designation process many times. During my 
experience, though, I've noticed one glaring disparity in the 
Act's implementation. Almost all of the Nation's wilderness 
areas are in the west. Of those 103 million acres, almost 99 
million are in the west. That's right, the west has over 95 
percent of this Nation's wilderness.
    Now, that works out pretty well for a lot of westerners. 
Our youth groups love to go backpacking into our wilderness 
areas. A Boy Scout from Salt Lake City can go on a weekend 
excursion with his troop into the beautiful High Uintas 
Wilderness area. He can hike up Explorer Peak overlooking the 
mountain valleys, breathe in the fresh pine scented air and 
marvel at the beauty of nature. It helps a young man to see 
past the streets. It gives a kid the opportunity to meditate 
and think about life, and the world, and to see a bigger 
picture.
    I think kids need experiences like that. I think a good 
quality wilderness experience is something that can benefit 
anyone. And I think that people in the East need them just as 
much people in the West. So my question is this: Why are we 
opting to preserve only western wilderness?
    What are the effects of preserving wilderness on only one 
side of the continent? Well, first, we are gradually losing the 
opportunity to save important ecosystems. The eastern forests 
have a unique biological balance found nowhere else in the 
world. Every day that we delay preservation, we are risking 
irreparable damage to these ecosystems.
    Second, it makes it very difficult, if not impossible, to 
have a good wilderness experience in the east. In the East, we 
have a situation where over 80 percent of the country's 
population must share less than 5 percent of the country's 
wilderness. The few wilderness areas that we do have in the 
east are consequently almost unbearably crowded.
    Now, I'll have to admit, there are a lot of easterners for 
whom this really isn't a big problem. They just catch a flight 
to Colorado or Alaska for a weekend, and have a great 
wilderness experience there. A lot of these people don't really 
think it's a problem that there isn't very much wilderness in 
the east, and many of these same people declined to come to 
this hearing. They don't understand why we would need more 
wilderness in the east if we can just designate more in the 
west.
    Well, it is a problem for the millions of eastern Americans 
who can't afford to fly 2,000 miles to go camping for a 
weekend. Is it fair to have a world where only wealthy 
easterners are able to enjoy wilderness? As it stands now, the 
average kid living in the Eastern inner city isn't going to 
have the opportunity to experience the wilderness. His family 
can't afford to take him out west and inner city youth groups 
don't have that kind of money. He really needs to get away from 
the street and experience nature, even if it's just for a 
weekend, but he'll never get the chance. He probably needs the 
wilderness experience more than anyone, and yet we've created a 
system where he is the one with the least access to wilderness.
    For over 30 years now, Congress has followed basically the 
same pattern. The agencies study the areas that might qualify, 
whether it is a RARE I or RARE II process, or whether it is 
National Park or Refuge wilderness. They then make 
recommendations to Congress and then we decide what should be 
designated. We all get together, compare notes, argue a little, 
and designate a few million more acres of wilderness in the 
west, hoping it will take some of the pressure off. Over the 
last three decades this has led to a staggering disparity 
between the number of acres of wilderness in the west as 
compared to the number of acres of wilderness in the east.
    The last time we took a serious look at the issue of 
eastern wilderness preservation was with the Eastern Wilderness 
Act of 1975. This Act specifically designated about 204,000 
acres of wilderness east of the 100th meridian, and designated 
several wilderness study areas. The Act was successful, to a 
certain extent, at increasing the amount of eastern wilderness. 
However, it has been over 20 years since it was passed, and the 
disparity between eastern and western wilderness acreage 
continues to grow. It is time that we address this issue again.
    Granted, there are a lot of reasons that wilderness 
designation in the east is difficult. Among these include the 
fact that there is less Federal land in the east, and that 
there are fewer unsettled areas in the east. However, I don't 
think it is fair to deny easterners the chance to have 
wilderness in their midst just because it is a little more 
difficult to designate eastern wilderness than western 
wilderness. There are millions of acres in the East that can 
and should become wilderness. These areas must be preserved. If 
we neglect to do so we may lose the chance forever.
    I think that H.R. 1567 would go a long way toward remedying 
the eastern wilderness problem. It will direct the Secretary of 
Agriculture and Secretary of Interior to study and inventory 
lands east of the 100th meridian that might qualify as 
wilderness. A process of public hearings will then ensue where 
State and local interests will be allowed to express their 
views on proposed designations. From time to time, following 
this period of local input the Secretaries will report to the 
President their recommendations as to the suitability of these 
lands for wilderness preservation. The President will then make 
recommendations with respect to each area to Congress. The 
President's recommendations will become effective only through 
an Act of Congress.
    Several components of the bill would serve to make 
wilderness designation in the east easier. First, it lowers the 
acreage threshold in the east to 500 acres. This will help 
alleviate the problem that it is more difficult to find large 
unsettled areas east of the 100th meridian. Second, the bill 
would allow State and private lands to be studied for 
wilderness feasibility. This would help solve the problem that 
there is so little Federal land in the east. Third, the law 
would allow land to be designated as wilderness if it could 
eventually qualify as wilderness through natural reclamation. 
This would help alleviate the problem that so little of the 
east fits the ``untrammeled'' definition of the original Act.
    Finally, it would get the ball rolling, so to speak. For 20 
years now we have been ignoring the question of eastern 
wilderness. It's time to start discussing the issues. It's time 
to start doing something. This bill would finally force 
Congress to make decisions on all potential wilderness in the 
east sometime during the next 15 years.
    I want to make one thing very clear: this bill does not 
actually designate any wilderness areas. Congress would still 
have to vote on each wilderness area. What this bill does do is 
force us to start acting. It is designed to make it a little 
easier for eastern lands to qualify, and then to force us to 
start considering each of those areas.

    Mr. Hansen. The gentleman from American Samoa.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman, for your calling 
the hearing for these several bills that are now considered by 
the Subcommittee at this time. But before making my statement, 
I certainly would like to offer my personal welcome to the 
gentleman from New Mexico, our colleague from New Mexico 
Congressman Skeen, and certainly wish to thank him personally 
for the tremendous help and his leadership that he has given in 
the Appropriations Committee. And we really appreciate the help 
he has given over the years.
    Mr. Chairman, the Subcommittee is considering two very 
unrelated pieces of legislation today. I understand that H.R. 
1051 is supported by the entire New Mexico delegation, and I am 
unaware of any controversy associated with that legislation.
    The other bill we are considering today is H.R. 1567 and is 
likely to be one that we will focus on in the testimony and 
questioning for this hearing. H.R. 1567 sets a procedure to 
study designated managed wilderness lands in the eastern United 
States that is for the most part duplicative, in my humble 
opinion, of the existing Wilderness Act. In fact, whole 
sections of the bill are taken verbatim from the current 
wilderness legislation.
    The bill does differ from existing law in several 
significant aspects. First, it allows land to be recommended 
for wilderness. If such land could be naturally reclaimed, so 
it is original wilderness characteristics. Second, the bill 
allows areas as small as 500 acres to be designated wilderness. 
And third, the legislation provides for the study of all State 
and private lands east of the 100th meridian for possible 
wilderness designation.
    It is this last provision that is most interesting, Mr. 
Chairman. The Wilderness Act only provides that Federal lands 
be studied and designated wilderness. Given some of the 
concerns expressed during consideration of the biological 
survey, I am surprised to see the proponents of H.R. 1567 
advocating a study of vast amounts of private and State lands. 
And maybe, Mr. Chairman, you can provide clarification on this 
point.
    I understand that the Administration witnesses today will 
testify in opposition to H.R. 1567, citing the bill's 
deviations from existing wilderness policy and its redundancy 
with many of the provisions of the Wilderness Act.
    For the past 30 years, Congress has provided for the study 
and designation of Federal lands in the eastern United States. 
In fact, the Eastern Wilderness Act was signed into law in 
1975. Numerous eastern areas were designated wilderness prior 
and subsequent to 1975.
    Mr. Chairman, many Members of our side have voted for 
eastern wilderness legislation. If there are new proposals to 
designate wilderness in the East, I think we should consider 
them. However, I believe that maybe we don't need a new law to 
do this. Wilderness has been and continues to be studied and 
designated pursuant to the Wilderness Act of 1964. I believe we 
should continue to consider wilderness within that parameter 
and with the law's policy and framework.
    I thank the Chairman for providing me the opportunity to 
make this statement and I yield back the balance of my time.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments. Let's just quickly point out to you that I have been 
on this Subcommittee for 17 years and been part of every 
wilderness Act that has come along, and every one of them 
surrounds private and State property. And I fully--I want to 
also add that every one of them has pieces of less than 5,000 
acres which somebody seems to have a way of disobeying the law 
very readily. I say that with respect to my good friend from 
American Samoa.
    The gentleman from Oregon, Mr. Smith.

STATEMENT OF HON. ROBERT F. SMITH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Robert Smith. Mr. Chairman, I want to also welcome Mr. 
Redmond and Mr. Skeen to this Subcommittee. While we are not 
discussing their bill at this point, we are discussing an issue 
of utmost importance to both of them and to we in the West. And 
I am really proud to be a cosponsor of this legislation. And I 
thank you, Mr. Chairman, for an introduction of this idea.
    For as long as I have been here, not quite as long as you, 
and on an interrupted tenure, I have watched and sat and 
listened to easterners trump up western wilderness programs 
until I am sick of it, frankly. And the very idea that we 
shouldn't be studying eastern wilderness opportunities seems 
like total hypocrisy to me. I--in fact, I am surprised that I 
don't see those protectionists who have advanced their ideas on 
western wilderness as cosponsors of your bill. They are not 
there. I am shocked, because they have ventured and supported 
every wilderness program known to mankind for the years I have 
been here. So I am surprised they don't support the idea in the 
East.
    Now, why is it wrong for westerners to ask that we study 
eastern wilderness while we have been under the thumb of 
easterners all these years studying western wilderness. So I 
think it is just mightily fair that we advance this idea and 
change the focus a tad. Obviously this is your intention, to 
change the focus from the West being the recipient of all of 
this great legislation to the East.
    Now, there are lots of timberlands in the East. There are 
lots of Federal lands in the East. Certainly the East is the 
oldest part of our country. If we want to preserve antiquities, 
we ought to look at the East first and not the West.
    So I am delighted, Mr. Chairman, with this idea, and I 
suggest that we ask those folks who have advanced wilderness 
for all these years that you and I have sat here to be a part 
of this legislation, because in all fairness we should 
establish the East. If it is good policy for the West, it must 
be good policy for the East.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Smith.
    Mr. Hansen. Gentleman from California, Mr. Radanovich.

  STATEMENT OF HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman. I, too, want to 
applaud you and the bill you have introduced, H.R. 1567, and 
cointroduced with Mr. Smith from Oregon. And, you know, I am 
reminded by the chart that was included in our packet of land 
east of the 100th meridian, which is roughly the Mississippi 
River, actually a little bit to the west of the Mississippi 
River, and all the land to the west of that line is--it 
includes wilderness--is 98 million acres; east of that line, on 
the east, eastern part of the United States, about 4 million. 
And, you know, I just want to encourage the easterners to know 
that eastern wilderness is just as good as western wilderness, 
and it is just as worthy of protection as is the wilderness in 
the West. And I am encouraged by the fact that we can take a 
look and find some of those areas where we can begin to get 
involved to make sure that this country's wilderness heritage 
is protected.
    It is a big discrepancy, and I think it causes some people 
in the west--or, excuse me, the East--to have an undue 
influence on the resources of the West. And I look forward to 
that being corrected by this bill.
    Thank you.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments.
    We are grateful for our first panel: Joe Skeen, New Mexico, 
accompanied by Bob Gish and Bill Redmond. And we will take you 
in that order. So, Joe, the time is yours, sir.

STATEMENT OF HON. JOE SKEEN, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW MEXICO

    Mr. Skeen. Well, thank you very much, Mr. Chairman, and 
Members of the Subcommittee. We appreciate the opportunity to 
talk to you about this bill today.
    I want to thank for you holding this hearing on H.R. 1051, 
which is a bill that amends the New Mexico Statehood and 
Enabling Act of 1910. The entire New Mexico congressional 
delegation supports this legislation as well as the Governor 
and the State legislature.
    Before I proceed with my testimony, I would like to state 
for the record that Congressman Steve Schiff was unable to be 
here today because of medical reasons and strongly supports 
this legislation which he sponsored.
    Now I would also like to take this opportunity to introduce 
you to you Mr. Bob Gish from the State of New Mexico Investment 
Council, who is available to answer questions on this 
legislation.
    Now, on behalf of the State of New Mexico I am placing into 
the record a statement from Phil Archibeck, State investment 
officer for the State of New Mexico, which explains the 
legislation and provides backup documentation for the 
legislation.
    I would also like to take this time to point out that an 
identical Senate bill, S. 430, has passed the Senate and is now 
in our body awaiting action. Further, it is my understanding 
that the Department of Interior has informed the Congress it 
has no objection to the bill.
    Basically the issue behind this bill involves the manner in 
which the State of New Mexico invests its money and how it then 
disperses the funds for the betterment of its citizens. The 
Enabling Act has governed these activities since statehood. 
However, as investment patterns changed, it became apparent to 
New Mexico that the system no longer was keeping pace with 
modern investment strategies and customs. Following the 
intensive review, the issue was placed before the voters last 
year as an amendment to the New Mexico Constitution. The 
amendment passed by a 2 to 1 margin last November. All this 
legislation does is amend the New Mexico Statehood and Enabling 
Act so that they are in conformity with this new change in the 
New Mexico Constitution.
    In 1957, Congress amended the Enabling Act to allow State 
permanent fund investments in corporate stocks for the first 
time. However, that amendment made no provision regarding how 
distributions were to be made from returns on the stocks. So in 
fact it was ruled that only dividends from the stocks could be 
distributed, which had the effect of no significant investments 
were made in stocks.
    The real impact meant that investments were, in fact, 
basically limited to investments that were income-interest-
based. A new formula was prepared by the committee studying 
this issue, and in 1996 the voters adopted it. In early 1997, 
the State legislature made the needed changes in State law to 
reflect the new constitutional provisions, and it is our hope 
to get this legislation adopted as soon as possible because the 
New Mexico budget year begins on July 1.
    Mr. Chairman, it is important that New Mexico permanent--
that the New Mexico permanent fund be managed in a modern and 
effective manner. These changes will allow that to happen, and 
further it will allow the State to preserve the two permanent 
funds the State has for future generations.
    In closing, I want to thank you and the Subcommittee for 
scheduling this hearing, and I want to assure you that I will 
work closely with you to assure the passage of this very 
important piece of legislation.
    Thank you, Mr. Chairman and Members of the Subcommittee.
    Mr. Hansen. Thank you, Mr. Skeen.
    [The statement of Mr. Skeen follows:]

  Statement of Hon. Joe Skeen, a Representative in Congress from the 
                          State of New Mexico

    Mr. Chairman, I want to thank you for holding this hearing 
today on H.R. 1051 a bill amending the New Mexico Statehood and 
Enabling Act of 1910. The entire New Mexico Congressional 
Delegation supports this legislation as well as the Governor 
and the State legislature.
    Before I proceed with my testimony I would like to state 
for the record that Congressman Steve Schiff was unable to be 
here today because of medical reasons and strongly supports 
this legislation which he cosponsored. I would also like to 
take this opportunity to introduce Bob Gish from the State of 
New Mexico Investment Council who is available to answer 
questions on this legislation.
    On behalf of the State of New Mexico I am placing into the 
record a statement from Phil Archibeck, State investment 
officer for the State of New Mexico, which explains the 
legislation and provides backup documentation for the 
legislation.
    I would also take this time to point out that an identical 
Senate Bill (S. 430) has passed the Senate and is now in our 
body awaiting action. Further it is my understanding that the 
Department of Interior has informed the Congress it has no 
objection to the bill.
    Basically the issue behind this bill involves the manner in 
which the State of New Mexico invests its money and how it then 
disperses the funds for the betterment of its citizens. The 
Enabling Act has governed these activities since statehood. 
However as investment patterns changed it became apparent to 
New Mexico that the system no longer was keeping pace with 
modern investment strategies. Following an intensive review the 
issue was placed before the voters last year as an amendment to 
the New Mexico Constitution. The amendment passed by a two to 
one margin last November. All this legislation does is amend 
the New Mexico Statehood and Enabling Act so that they are in 
conformity with this new change in the New Mexico Constitution.
    In 1957 Congress amended the Enabling Act to allow State 
permanent fund investments in corporate stocks for the first 
time. However, that amendment made no provision regarding how 
distributions were to be made from returns on the stocks. So in 
fact it was ruled that only dividends from the stocks could be 
distributed which had the effect that no significant 
investments were made in stocks. The real impact meant that 
investments were in fact basically limited to investments that 
were income interest based. A new formula was prepared by the 
committee studying this issue and in 1996 the voters adopted 
it. In early 1997 the State legislature made the needed changes 
in State law to reflect the new constitutional provisions. It 
is our hope to get this legislation adopted as soon as possible 
because the New Mexico budget year begins July 1.
    Mr. Chairman it is important that the New Mexico permanent 
fund be managed in a modern and effective manner. These changes 
will allow that to happen and further it will allow the State 
to preserve the two permanent funds the State has for future 
generations. In closing I want again to thank the Committee for 
scheduling this hearing and I want to assure you I will work 
closely with you to assure passage of this very important piece 
of legislation.

    Mr. Hansen. Did you want to say anything about the other 
bill?
    Mr. Skeen. I strongly support where you are going. And I 
think this bill is a way to educate easterners to what's going 
on in the west because we have given at the office. It is about 
their time to ante up.
    Mr. Hansen. I appreciate it.
    Mr. Skeen. Other than that, I have very strong feelings 
about it.
    Mr. Hansen. I appreciate your comments.
    Mr. Redmond, it is a pleasure to have you with us today. We 
welcome you to the Subcommittee and turn the time to you, sir.

 STATEMENT OF HON. BILL REDMOND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Redmond. Thank you, Mr. Chairman, for holding the 
hearing today on H.R. 1051, a bill to amend the New Mexico 
Statehood and Enabling Act of 1910 to protect permanent trust 
funds of the State of New Mexico from erosion due to inflation 
and to modify the basis on which distributions are made from 
those funds. I appreciate you giving me this opportunity to 
speak on behalf of the proposed amendment.
    This bill was introduced in the House and Senate 
simultaneously on March 12th of this year, and it is supported 
by the entire New Mexico delegation. The Department of 
Interior, under whose purview this legislation falls, also has 
no objection to this amendment.
    As you are aware, the Federal Government has traditionally 
provided a series of benefits to new States as a part of the 
admissions process. In the case of 30 States, those benefits 
included land grants. New Mexico received slightly over 3 
million acres for a variety of purposes when it became a State. 
Among those specified uses of this land, as per the Enabling 
Act of 1910, were the retirement of territorial debt and 
maintenance of hospitals and schools.
    Section 2 of the Enabling Act required New Mexico to agree 
to all the limitations that accompanied the various grants and 
prohibited any State constitutional amendment without the 
consent of the U.S. Congress.
    Among the limitations included in these provisions were 
restrictions on investments and requirements to disburse the 
income from the permanent funds. In 1957, the Enabling Act was 
amended to delete a requirement that a separate fund be 
established for each purpose for which grants were made, and 
that all moneys must be invested in safe interest-bearing 
securities. This change allowed the State of New Mexico to 
invest in corporate stocks where they had been unable to 
previously.
    However, in 1957, change--the 1957 changes did not specify 
how distributions would be handled from the returns. Since 
dividends on stocks are generally lower than interest on bonds, 
maintenance of the annual payments limited investment in 
stocks. The ultimate effect was the diminishment of the real 
value of the corpus of the permanent fund.
    In 1995, a permanent funds study committee released a 
report on the portfolio of the permanent fund and recommended a 
series of amendments to the State Constitution to provide for 
greater flexibility and broader diversification of the 
investments in order to reserve the corpus of the fund against 
inflation, and to maintain the income stream for the 
beneficiaries.
    The new distribution method was approved by 68 percent of 
the voters in a State constitutional amendment in the 1996 
general election. However, in order for these changes to take 
effect, Congress must amend the Enabling Act and consent to the 
amendments.
    Mr. Chairman, once again, I thank you for holding these 
hearings, and for your support on the changes. I look forward 
to working with you in the future on this issue.
    Mr. Hansen. Thank you, Mr. Redmond.
    [The statement of Mr. Redmond follows:]

 Statement of Hon. Bill Redmond, a Representative in Congress from the 
                          State of New Mexico

    Thank you Mr. Chairman for holding this hearing today on 
H.R. 1051, a bill to amend the New Mexico Statehood and 
Enabling Act of 1910 to protect permanent trust funds of the 
State of New Mexico from erosion due to inflation and to modify 
the basis on which distributions are made from those funds. I 
appreciate you giving me the opportunity to speak on behalf of 
this proposed amendment.
    This bill was introduced in the House and Senate 
simultaneously on March 12 of this year and is supported by the 
entire New Mexico delegation. The Department of Interior under 
whose purview this legislation falls, also has no objection to 
this amendment.
    As you are aware, the Federal Government has traditionally 
provided a series of benefits to new States as part of the 
admissions process. In the case of 30 States, those benefits 
included the grant of lands. New Mexico received slightly over 
3 million acres for a variety of purposes when it became a 
State. Among the specified uses of this land, as per the 
Enabling Act of 1910, were the retirement of the territorial 
debt, and the maintenance of hospitals and schools.
    Section 2 of the Enabling Act required New Mexico to agree 
to all the limitations that accompanied the various grants and 
prohibited any State constitutional amendment without the 
consent of the U.S. Congress.
    Among the limitations included in these provisions were 
restrictions on investments and requirements to disburse the 
income from the permanent funds. In 1957, the Enabling Act was 
amended to delete a requirement that a separate fund be 
established for each purpose for which grants were made, and 
that all moneys must be invested in ``safe interest-bearing 
securities.'' This change allowed the State of New Mexico to 
invest in corporate stocks where they had been unable to 
previously.
    However, the 1957 changes did not specify how distribution 
would be handled from returns. Since dividends on stocks are 
generally lower than interest on bonds, maintenance of annual 
payments limited investment in stocks.The ultimate effect was 
the diminishment of the real value of the corpus of the 
permanent fund.
    In 1995, a permanent funds study committee released a 
report on the portfolio of the permanent fund and recommended a 
series of amendments to the State constitution to provide for 
greater flexibility and broader diversification of the 
investments in order to preserve the corpus of the fund against 
inflation, and to maintain the income stream for the 
beneficiaries.
    The new distribution method was approved by 68 percent of 
the voters as a State constitutional amendment, in the 1996 
general election. However, in order for these changes to take 
effect Congress must amend the Enabling Act and consent to the 
amendments.
    Mr. Chairman, once again I thank you for holding these 
hearings and for your support of these proposed changes. I look 
forward to working with you in the future on this issue.

    Mr. Hansen. Mr. Smith, do you have any questions of the 
panel?
    Mr. Robert Smith. I have some in-depth questions for both 
Members of Congress, but I will submit those in writing, Mr. 
Chairman.
    Mr. Hansen. Thank you.
    Mr. Faleomavaega, any questions?
    Mr. Skeen. Better leave while the leaving is good.
    Mr. Faleomavaega. Mr. Chairman, I have no questions, but 
again, to thank Mr. Skeen and his associates from New Mexico 
for his testimony.
    Mr. Hansen. Thank you.
    [Whereupon, at 11:20 a.m. the Subcommitee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3699.001
    
    [GRAPHIC] [TIFF OMITTED] T3699.002
    
    [GRAPHIC] [TIFF OMITTED] T3699.003
    

</pre></body></html>
